/

■

Q ORIGINAL
No.

Supreme Court of tfic ©mteb States!
CHAD ALAN SODERMAN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
CERTIFICATE OF FILING
AND SERVICE
I, Chad Alan Soderman, being first duly sworn according to law, depose and say that the
required number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Eighth Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid and addressed

received

m t 6 J02'

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Southern District of Iowa, 8
South 6th St Rm 348, Council Bluffs, IA 51501, (712-256-5009) (counsel for respondent) and
Solicitor General, Department of Justice, Washington, DC 20530 (Phone: 202-514-2217)
(counsel for respondent).
1 further state that 1 am incarcerated in the federal prison at Littleton, CO 80123, and am
filing the documents pro se.
Signed under penalty of perjury
under 28 U.S.C. § 1746, this ___
, 2021.
day of
CHAD ALAN SODERMAN
44905-013
9595 West Quincy Avenue
Littleton, CO 80123

